                                                                             Report No. DODIG-2013-135




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 18, 2013




                    The Department of Defense
                    and Veteran Affairs Health Care
                    Joint Venture at Tripler Army
                    Medical Center Needs More
                    Management Oversight




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       The Department of Defense and Veteran Affairs Health
                                       Care Joint Venture at Tripler Army Medical Center
                                       Needs More Management Oversight


September 18, 2013                                     Findings Continued

Objective                                              reimbursement requirement of Section 8111, Title 38, United States
                                                       Code, “Sharing of Department of Veterans Affairs and Department
Our audit objective was to determine whether           of Defense Health Care Resources.” Furthermore, without a mutual
the Master Sharing Agreement (MSA) and Joint           solution between DoD and the Department of Veterans Affairs
Policies governing claims and reimbursement            to address these longstanding problems, the burden of about
between Department of Veterans Affairs                 $26.2 million in delinquent debt, $3.7 million in unbilled claims,
(VA) and DoD for health care services at               and $3.7 million in uncompensated care will continue to grow.
Tripler Army Medical Center (TAMC) were                (See Appendix E for details on potential monetary benefits.).
operating effectively.

                                                       Recommendations
Findings
                                                       Among other recommendations, we recommend TAMC request the
The MSA and Joint Policies were not effective          required waiver from the Under Secretary of Defense (Comptroller)
to obtain timely reimbursement for health              and elevate issues to U. S. Army Medical Command (MEDCOM);
care services provided.      Specifically, the         MEDCOM request DoD/VA Program Coordination Office to review
MSA and Joint Policies did not comply with             the reimbursement policy; and Assistant Secretary of Defense
DoD Regulations, deliver an adequate                   (Health Affairs) require the DoD/VA Program Coordination Office
authorization process, or provide an effective         present the issues cited to the appropriate levels within the Health
modification process to revise local policies.         Executive Council for resolution.
These conditions contributed to $26.2 million
out of $73.2 million in medical services
provided to Veterans Affairs Pacific Islands           Management Comments
Health Care System beneficiaries from                  The Assistant Secretary of Defense (Health Affairs) comments
FY 2009 through FY 2012 not being                      were partially responsive to the one recommendation. The Chief
reimbursed, $3.7 million in claims not billed          of Staff, MEDCOM, responding on behalf of the Commander,
in accordance with DoD regulations, and                MEDCOM, and Commander, TAMC, comments were responsive
another $3.7 million in uncompensated care.            to 9 of 10 recommendations and partially responsive to 1 of 10
                                                       recommendations. We request that the Secretary of Defense (Health
This occurred because DoD management did
                                                       Affairs) and Chief of Staff, MEDCOM, provide revised comments to
not provide adequate oversight governing this
                                                       the final by October 18, 2013. Please see the Recommendations
Joint Venture. As a result of the ineffective MSA
                                                       Table on the back of this page.
and Joint Policies governing the interagency
agreement, TAMC cannot ensure that the
military treatment facility can meet the




Visit us on the web at www.dodig.mil


                                                                           DODIG-2013-135 (Project No. D2012-D000DA-0190.000) │ i
                  Recommendations Table
                                                                          Recommendations         No Additional
                                     Management                           Requiring Comment     Comments Required
                    Assistant Secretary of Defense (Health Affairs)   3
                    Commander, U.S. Army Medical Command                                      2.a, 2.b
                                                                                              1.a, 1.b, 1.c, 1.d, 1.f,
                    Commander, Tripler Army Medical Center            1.e                     1.g, 1.h


                  *Please provide comments by October 18, 2013.




ii │ DODIG-2013-135 (Project No. D2012-D000DA-0190.000)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500

                                                                              September 18, 2013

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)
	              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: The Department of Defense and Veteran Affairs Health Care Joint Venture at
	        Tripler Army Medical Center Needs More Management Oversight
	        (Report No. DODIG-2013-135)

We are providing this report for your review and comment. DoD management did not provide
adequate oversight governing the Joint Venture at Tripler Army Medical Center. As a result,
without a mutual solution between DoD and the Department of Veterans Affairs to address the
longstanding problems, the burden of about $26.2 million in delinquent debt, $3.7 million in
unbilled claims, and $3.7 million in uncompensated care will continue to grow. During the audit,
we identified $33.6 million in potential monetary benefits that could be used to meet future
requirements. We considered management comments on a draft of this report when preparing
the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Assistant
Secretary of Defense (Health Affairs) comments for Recommendation 3 were partially
responsive. Although we did redirect this recommendation, we request additional comments
on this recommendation by October 18, 2013. The Chief of Staff, U.S. Army Medical
Command, responding on behalf of the Commander, U.S. Army Medical Command, and
Commander, Tripler Army Medical Center, agreed with recommendations 1.a, 1.b, 1.c, 1.d,
1.f, 1.g, 1.h, and 2.a; however; comments on Recommendations 1.e were only partially
responsive. Although the Chief of Staff, U.S. Army Medical Command did not agree with
recommendation 2.b, we deemed his response on actions to be taken responsive. Therefore we
request additional comments on Recommendation 1.e by October 18, 2013.

If possible, send a PDF file containing your comments to audcolu@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601‑5945
(DSN 329-5945).




	                                      Lorin T. Venable, CPA
	                                      Assistant Inspector General
	                                      Financial Management and Reporting



                                                                                              DODIG-2013-135 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________3

                  Finding. Inadequate Oversight of Policies Has
                  Resulted in Rising Delinquent Interagency Debt_______________4
                  Master Sharing Agreement and Joint Policies Contributed to Rising
                  Delinquent Debt, Unbilled Claims, and Uncompensated Care _______________________________5
                  Additional Management Oversight Is Needed_______________________________________________ 16
                  Impact of Insufficient Oversight _____________________________________________________________ 19
                  Management Comments on the Finding and Our Response________________________________ 20
                  Recommendations, Management Comments, and Our Response__________________________ 21
                  Management Comments on the Potential Monetary Benefits and Our Response_________ 29
                  Management Comments on Internal Control Weaknesses_ ________________________________ 29

                  Appendixes
                  Appendix A. Scope and Methodology _ ______________________________________________________ 30
                       Use of Computer-Processed Data _______________________________________________________ 32
                       Use of Technical Assistance______________________________________________________________ 32
                       Prior Coverage ___________________________________________________________________________ 33
                  Appendix B. Tripler Army Medical Center Memo to
                  Pacific Regional Medical Command Requesting Assistance________________________________ 34
                  Appendix C. Pacific Regional Medical Command Memo to
                  U.S. Army Medical Command Requesting Assistance_______________________________________ 35
                  Appendix D. U.S. Army Medical Command Memo to
                  Assistant Secretary of Defense (Health Affairs) Requesting Assistance___________________ 36
                  Appendix E. Summary of Potential Monetary Benefits_____________________________________ 37

                  Management Comments
                  Assistant Secretary of Defense (Health Affairs) Comments________________________________ 38
                  U.S. Army Medical Command Comments_____________________________________________________ 42

                  Acronyms and Abbreviations______________________________________________ 48

iv │ DODIG-2013-135
                                                                                                                                  Introduction




Introduction
Objective
Our objective was to determine whether the Master Sharing Agreement (MSA) and
Joint Policies governing claims and reimbursement between Department of Veterans
Affairs (VA) and DoD for health care services at Tripler Army Medical Center (TAMC)
were operating effectively. See Appendix A for the scope and methodology and prior
coverage related to the audit objective.


Background
Tripler Army Medical Center and the Joint Venture With
the Department of Veterans Affairs Pacific Island Health
Care System
TAMC, home of the Pacific Regional Medical Command (PRMC), is the only Federal
tertiary care hospital in the Pacific Basin. TAMC supports 264,000 local active duty
and retired military personnel, their families, and veteran beneficiaries. TAMC supports
an additional 171,000 military personnel, family members, veteran beneficiaries,
residents of nine U.S. affiliated jurisdictions, and forward-deployed forces in more than
40 countries throughout the Pacific.

In 1992, the Under Secretary of the Army signed the initial Joint Venture agreement
between TAMC and Veterans Affairs Pacific Islands Health Care System (VAPIHCS).
The vision for the Joint Venture agreement is to be the model DoD/VA integrated
comprehensive health care system in the 21st century. According to the agreement,
TAMC billed VAPIHCS for medical services totaling $18.7 million for FY 2009,
$21.0 million for FY 2010, $18.2 million for FY 2011, and $15.3 million for FY 20121.


Requirements for Health Care Resources
Section 8111, Title 38, United States Code, “Sharing of Department of Veterans Affairs
and Department of Defense Health Care Resources,” January 5, 20092, states that the
Secretary of VA and the Secretary of Defense will enter into agreements and contracts
for the mutually beneficial use or exchange of the health care resources of the VA


	1	
    The values billed to VAPIHCS represent net billings as of October 1, 2012. An additional $2.8 million for FY 2011 through
    FY 2012 was billed to VAPIHCS for professional fees; however VAPIHCS was not required to pay these bills, pending
    resolution. Professional fees are categorized as charges for attending physicians, consulting physicians, or both.
	2	
    The January 3, 2012, version of Section 8111, Title 38, United States Code contains the same language as the
    January 5, 2009, version.




                                                                                                                                DODIG-2013-135│ 1
Introduction



                 and DoD. The goal is to improve the access to, and quality and cost effectiveness of,
                 the health care provided by the VA and the Military Health System to the beneficiaries of
                 both Departments.

                 Furthermore, reimbursement under any sharing agreement entered into is based
                 on a methodology on which the two Secretaries agree.          The methodology should
                 provide appropriate flexibility to the heads of the facilities concerned, to take into
                 account local conditions and needs and the actual cost to the providing agency’s facility
                 of the health care resources provided. Facilities that provided the care or services will
                 receive the reimbursed funds.      According to the agreements, an agency will be
                 reimbursed for the cost of the health care resources provided. Furthermore, the rate
                 for such reimbursement will be determined in accordance with the methodology on
                 which the two Secretaries agree.


                 DoD/VA Program Coordination Office
                 The DoD Veteran Affairs Program Coordination Office (DVPCO) serves as the
                 central entity within Health Affairs/TRICARE Management Activity to monitor all
                 VA/DoD Health Care Resource Sharing activities, to include Health Information
                 Management/Technology, Financial Management, Clinical Activities, National Level
                 Interagency Agreements, TRICARE/VA Contractor Relationships, Joint Ventures, and
                 Health Systems Studies. As of FY 2013, there were 10 Joint Ventures.


                 National Agreements for Inpatient and Outpatient Billing
                 Between DoD and VA
                 Two memorandums establish the current national agreement between VA and DoD
                 for inpatient and outpatient reimbursement rates.       Both “Department of Veterans
                 Affairs-Department of Defense Health Care Resource Sharing Rates – Billing
                 Guidance for Inpatient Services,” August 2006, and “Outpatient Billing Guidance for
                 Department of Defense/Veterans Affairs Direct Sharing Agreements for Health Care,”
                 August 2009, provide guidance on billing rates to be used for VA and DoD sharing
                 agreements. Facilities are to bill services provided under the sharing agreements at
                 the TRICARE/Civilian Health and Medical Program of the Uniformed Services
                 maximum allowable charge rates less 10 percent, when a rate is available.           Both
                 memorandums further identify TAMC as a facility that can negotiate rates other
                 than the 10-percent discount to reflect the value of nonmonetary contributions
                 such as shared space or staff.




2 │ DODIG-2013-135
                                                                                               Introduction



Master Sharing Agreement Between TAMC and VAPIHCS
The intent of the MSA effective January 1, 2008, through December 31, 2013, is to
provide an instrument for sharing all health care resources between VAPIHCS and
TAMC where demand and capability exist, provided such sharing does not delay or
deny care to the primary population of each agency. The sharing agreement defines
eligibility for care, types of services available, responsibilities of both parties, and
procedures for development or modification of joint policies. Both the Commanding
General of TAMC and the Director of VAPIHCS signed and dated the sharing agreement.


DoD Financial Management Regulation, Volume 4,
Chapter 3, “Receivables”
DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR),
volume 4, chapter 3, requires that “receivables must be recognized when corresponding
revenue is earned and collected when due.” In addition, regarding intragovernmental
receivables, DoD performing activities will not perform reimbursable work for another
Federal Agency that is 90 days or more in arrears in payment of previous reimbursable
billings. The Office of the Under Secretary of Defense may waive this restriction if doing
so is in the national interest.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses associated with the MSA and Joint Policies governing claims and
reimbursement between the Department of VA and DoD for health care services in
accordance with DoD Instruction 5010.40. Commander TAMC, Commander U.S. Army
Medical Command (MEDCOM), and Director DVPCO did not comply with regulations
and policies to obtain timely reimbursement for health care services provided to
VAPIHCS beneficiaries. We will provide a copy of the report to the senior official
responsible for internal controls in the Department of the Army.




                                                                                             DODIG-2013-135│ 3
Finding




                 Finding
                 Inadequate Oversight of Policies Has Resulted in Rising
                 Delinquent Interagency Debt
                 The MSA3 and Joint Policies governing claims and the reimbursement methodology
                 were not effective to obtain timely reimbursement for health care services provided to
                 VAPIHCS beneficiaries. Specifically, the MSA and Joint Policies did not:

                             •	 comply with the DoD FMR,

                             •	 deliver an adequate authorization process, or

                             •	 provide an effective modification process to revise local policies.

                 These conditions contributed to $26.2 million out of $73.2 million in medical services
                 provided to VAPIHCS beneficiaries from FY 20094 through FY 2012 not being
                 reimbursed, $3.7 million in unbilled claims, and $3.7 million in uncompensated
                 care. This occurred because prior and current management at TAMC, MEDCOM, and
                 DVPCO did not provide adequate oversight governing this joint venture. As a result,
                 the policies governing the interagency agreement at TAMC have not ensured that
                 the military treatment facility can meet the reimbursement requirement of
                 Section 8111, Title 38, United States Code, “Sharing of Department of Veterans Affairs
                 and Department of Defense Health Care Resources.” Furthermore, without a mutual
                 solution to address longstanding problems, the burden of about $26.2 million in
                 delinquent debt, $3.7 million in unbilled claims; and $3.7 million in uncompensated
                 care will continue to grow,5 which adversely affects TAMC’s financial ability to
                 continue providing the best quality care. Although the delinquent debt is still an
                 issue, MEDCOM stated that VA had paid down the delinquent debt to $13.3 million as of
                 March 15, 2013.




                 345



                 	3	
                     We examined the current MSA, effective from January 1, 2008, through December 31, 2013. We did not examine any
                     earlier MSAs.
                 	4	
                     We chose to start our review with FY 2009 claims because it coincided with the implementation of Enhanced-Document
                     and Referral Management System (E-DR).
                 	5	
                     As of February 19, 2013, TAMC reported $4.5 million in FY 2013 delinquent debt, with no payment to a FY 2013 claim
                     made, and $611,409.83 in professional fees (see definition on page 14) that TAMC is required to bill, but VA is not required
                     to pay, pending resolution.




4 │ DODIG-2013-135
                                                                                                     Finding



Master Sharing Agreement and Joint Policies
Contributed to Rising Delinquent Debt, Unbilled
Claims, and Uncompensated Care
The MSA and Joint Policies were not effective to obtain reimbursement of health care
services provided to VAPIHCS beneficiaries from FY 2009 and FY 2012. The agreement
intended to share health care resources between VAPIHCS and TAMC where demand
and capacity exist, provided such sharing did not delay or deny care to the primary
population of each agency. Joint policies such as Joint Policy #08-016, “Claims and
Payments between TAMC and VAPIHCS,” March 2008; Joint Policy for Reimbursement
FY 2012; and Joint Policy #08-020, “Authorization Guidelines for Outpatient Care,”
March 2008 supplement the MSA and act as the standard operating procedures of the
Joint Venture. However, the MSA and the joint policies did not comply with DoD FMR,
deliver an effective authorization process, or provide an effective modification process.


Joint Policy Compliance With DoD Financial
Management Regulation
Joint Policy #08-016 was not effective to obtain timely reimbursement of $26.2 million
or bill $3.7 million in health care services provided to VAPIHCS beneficiaries;
therefore, Joint Policy #08-016 did not comply with DoD FMR. Two systemic instances
of noncompliance with DoD FMR policy existed within the Joint Policy and claims
processing. First, the TAMC claims process was not in compliance with DoD FMR
volume 4, chapter 3, “Receivables” guidance regarding the requirement for payment
from another Federal agency within 90 days. Second, TAMC did not record receivables
appropriately.   DoD FMR volume 4, chapter 3, “Receivables,” subsection 030102
states that receivables must be recognized when corresponding revenue is earned and
collected when due.

Joint Policy #08-016 and the FY 2012 Joint Policy for Reimbursement require the
processing of claims to start the day of patient discharge. Claims should then be
submitted within 45 days and then paid within 90 days of submission; however this
processing of claims did not occur for millions of dollars in services rendered. See
Figure 1 for a claims processing timeline.




                                                                                            DODIG-2013-135 │ 5
Finding



                 Figure 1. Claims Processing Timeframe


                                                      Day 1: Patient Discharged




                                                        Day 45: Claim should
                                                        have been submitted




                                                      Day 135: Payer will validate
                                                       and certify Explanation of
                                                     Beneﬁts and submit payment



                 Claims Were Not Reimbursed in a Timely Manner
                 TAMC continued to provide services to VAPIHCS beneficiaries even though millions
                 of dollars in reimbursements were in arrears. For claims from FY 2009 through
                 FY 2011, TAMC’s management provided documentation showing past due balances
                 as of October 1, 2012, of $1.3 million for FY 2009, $4.6 million for FY 2010, and
                 $9.0 million for FY 2011.        These past due balances were all beyond the 90-day
                 payment requirement within the DoD FMR. Total amount unpaid for FY 2012 was
                 $11.3 million. Table 1 shows TAMC’s account for VAPIHCS delinquent debt by
                 fiscal year.

                 Table 1. VAPIHCS Delinquent Debt as of October 1, 2012 (millions)
                              Fiscal Year       Net Billed                  Net Paid     Unpaid
                     FY 2009                        $18.7                      $17.5       $1.3
                     FY 2010                         21.0                         16.3      4.6
                     FY 2011                         18.2                          9.1      9.0
                     FY 2012                         15.3                          4.0     11.3
                     Totals                       $73.2*                       $46.9      $26.2

                 *The total does not sum because of rounding.


                 For the FY 2012 data provided, 15,207 unpaid claims valued at $6.1 million were more
                 than 90 days in arrears as of October 11, 2012.




6 │ DODIG-2013-135
                                                                                                                Finding



Paid claims were not reimbursed in a timely manner. For FY 2012,
TAMC did not receive its first payment, valued at $25,                            Receipt of
from VAPIHCS for services provided until May 2012, despite                     payments from
billing VAPIHCS for $9.4 million up to that point.                 We          these 15 claims
                                                                             from VAPIHCS took
reviewed fifteen paid claims valued at $575,336, and receipt
                                                                                an average of
of payments for these 15 claims from VAPIHCS took an                              159 days.
average of 159 days.            For example, TAMC transmitted
claim 0052-12-0020751 to VAPIHCS on December 27, 2011.
However, TAMC did not receive the $33,686 payment until August 10, 2012, 227 days
after transmittance.

As a result, TAMC was not in compliance with DoD FMR by continuing to perform
reimbursable work for another Federal agency that was 90 days or more in arrears.
TAMC management was aware of these unpaid balances and in the interest of
patient safety knowingly disregarded the DoD FMR volume 4, chapter 3, requirement
to terminate service because of payments in arrears to VAPIHCS.                             However,
TAMC management stated that it was unaware of the requirement to obtain a waiver
from the Office of the Under Secretary of Defense.                  TAMC management did not
provide adequate oversight in resolving this problem.                 TAMC management should
request the waiver from the Office of the Under Secretary of Defense to continue
providing service to another agency more than 90 days in arrears and working
with VAPIHCS to resolve the delinquent debt in a reasonable amount of time.


Billing and Recording Receivables
TAMC management identified more than 14,000 claims for FY 2012, valued at
$3.7 million, which had yet to be billed and recorded as a receivable in accordance with
the DoD FMR. TAMC personnel described these claims in two ways: claims containing
billing or coding errors and claims that were unauthorized.                     Table 2 illustrates
these claims.

Table 2. FY 2012 Unbilled Claims
                  Type                                Claims                       Amount*
 Unbilled – billing and coding errors                   3,197                     $ 242,475
 Unbilled – unauthorized                              11,034                        3,449,918
 Total                                                14,321                      $ 3,692,392

*The amounts are estimates, because the actual value of the claim cannot be computed until the
claim is recorded as a “receivable” and all applicable discounts are applied. The total does not sum
because of rounding.




                                                                                                       DODIG-2013-135 │ 7
Finding



                 We reviewed 30 of the 14,321 claims; these 30 claims were valued at an estimated
                 $1 million. We identified three problems with recording claims as a receivable when
                 revenue was earned.     First, TAMC management was not reviewing and correcting
                 claims containing billing or coding errors in a timely manner.           Second, TAMC
                 management erroneously believed a VA authorization was a prerequisite to recording
                 a receivable. Third, TAMC personnel disagreed internally about who was responsible
                 to research and resolve claims containing authorization errors.

                 Timely Review of Claims Containing Billing and Coding Errors. TAMC management
                 did not adequately oversee the unbilled claims containing billing or coding errors,
                 resulting in $242,474 in claims not being recorded as receivables in accordance
                 with DoD FMR volume 4, chapter 3. We reviewed 15 claims, valued at $103,717,
                 containing billing or coding errors. TAMC management stated that after our request to
                 review the 15 claims, it assigned staff to begin researching, reviewing, and recording
                 some of the claims as receivables. As Figure 1 shows, a claim should be submitted
                 within 45 days of patient discharge. However, for these claims, the correction and
                 recording of a receivable was performed in an untimely fashion.           For example,
                 Claim 0052-12-0018075 contained a discharge date of December 12, 2011. The claim
                 was initially created on December 15, 2011, and was not recorded as a receivable
                 until October 26, 2012, 316 days later. The claim, valued at $1,123, had an error code
                 tied to it.

                 Although TAMC had begun reviewing and correcting some of these errors for claims
                 before our site visit, the reviewing and correcting were not performed in a timely
                 fashion. The remainder of the claims containing billing or coding errors should be
                 reviewed, researched, and correctly recorded as receivables.

                 Recording Unauthorized Claims. TAMC management did not adequately oversee
                 the unbilled unauthorized claims, resulting in $3,449,918 in claims not recorded as
                 receivables in accordance with DoD FMR volume 4, chapter 3. We reviewed 15 claims,
                 valued at $922,676, containing authorization errors. TAMC management stated that
                 it misinterpreted a 2009 MEDCOM policy that stated that the accounts receivable
                 will become recognizable when the bill or claim is invoiced.        TAMC management
                 erroneously believed that VA authorization was required to record a receivable.




8 │ DODIG-2013-135
                                                                                                    Finding



Internal Disagreements. Furthermore, TAMC personnel
did not agree whether the billing department or                         The claim
                                                                       was initially
the   authorization      center    was    responsible   for
                                                                created on December
researching, reviewing, and correcting the claims               28, 2011, and as of our
containing authorization errors. As a result of the              site visit, October 30,
misinterpretation       of     guidance    and   internal       2012, a date 307 days
                                                                later, had not yet been
disagreement, the claims remained unrecorded as                       recorded as a
a receivable.   For example, Claim 0052-12-0023663                     receivable.
contained a discharge date of November 15, 2011.
The claim was initially created on December 28, 2011, and
as of our site visit, October 30, 2012, a date 307 days later, had not yet been recorded
as a receivable. The claim, valued at $171,207, had an authorization error tied to it.

Inadequate management oversight caused claims to remain unbilled for extensive
periods of time.      TAMC management needs to review, research, and record the
unauthorized claims as receivables; revise the claims processing policy to comply
with DoD FMR; and identify the roles and responsibilities associated with the
processing of claims.


Authorization Process Hinders Processing and Reimbursement
The joint policies did not deliver an adequate authorization process to perform
timely processing and reimbursement of claims for services provided to VAPIHCS
beneficiaries. Specifically, 11,034 claims, valued at $3.45 million, were unauthorized in
FY 2012 as of October 11, 2012, because of missing authorizations or data quality
problems, which delayed reimbursement.

In September 2008, VAPIHCS awarded a contract to provide the Enhanced-Document
and Referral Management System (E-DR) to both the VAPIHCS and TAMC. This system
is composed of five modules, two of which are the Referral Management module and
the Billing Module Accounts Receivable Management System-Professional (ARMS-Pro).
TAMC personnel use the ARMS-Pro module as their primary system to bill VAPIHCS
beneficiaries. The award not only granted VAPIHCS contract oversight over E-DR,
which also included contract oversight over TAMC’s billing module ARMS-Pro, but
also provided only VAPIHCS personnel and not TAMC personnel the administrative
privileges to approve authorization numbers needed to process claims within
ARMS-Pro. E-DR provides a method to match each VA authorization number or referral
to the appointment.          This process provides the users in both agencies increased




                                                                                           DODIG-2013-135 │ 9
Finding



                 visibility to determine status of a particular claim, to include the proper authorization.
                 E-DR reconciles patient information from the ARMS-Pro billing module against the
                 E-DR Referral Management module to accurately account and bill VAPIHCS claims.
                 Without a valid VAPIHCS authorization tied to a claim, claims failed to clear TAMC’s
                 E-DR ARMS-Pro billing module. See Table 3 for a detailed description of the reasons
                 claims remained unauthorized.

                 Table 3. FY 2012 Claims Remaining Unauthorized as of October 11, 2012
                        Authorization Failure Code                       Number of Claims                          Amount (in millions)
                      Missing Authorization Number                                  7,536                                       $1.35
                      Data Quality                                                  3,414                                        1.87
                      Other                                                             84                                       0.22
                      Total                                                       11,034                                        $3.45*

                 *Total does not sum because of rounding.

                 Claims Missing Authorizations
                 For FY 2012, 7,536 claims valued at about $1.35 million were missing authorizations
                 as of October 11, 2012. These claims encompassed outpatient care, urgent/emergent
                 care, and inpatient care. Specific examples follow:

                                •	 Outpatient Claims Were Missing Authorizations.                                               For FY 2012,
                                    5,470 outpatient claims, valued at $858,192, were missing an authorization as
                                    of October 11, 2012. Joint Policy #08-020 provides guidance and establishes
                                    procedures for obtaining authorization for care of eligible VAPIHCS
                                    beneficiaries referred for, or seeking, outpatient treatment at TAMC. The
                                    policy states that TAMC will provide outpatient care6 on a space-available
                                    basis to VA beneficiaries when referred and preauthorized. Furthermore,
                                    the Joint Policy for Claims and Payment between VAPIHCS and TAMC
                                    indicated that TAMC will bill services rendered on VA beneficiaries within
                                    45 days of discharge. The E-DR subcontractor stated that outpatient claims
                                    that are missing an authorization primarily occur for the following two
                                    reasons: because the date of service falls outside the validity period for
                                    the authorization or because the clinic that provided treatment was not
                                    authorized.          For example, control number 0052-12-0099217 identified
                                    a VAPIHCS beneficiary with an open authorization for cancer treatment


                 	 6	
                        Outpatient care is medical care or treatment that does not require an overnight stay in a hospital or medical facility, to
                        include patients triaged as “urgent” or “emergent.”




10 │ DODIG-2013-135
                                                                                        Finding



  from December 2011 through May 2012. The next authorization began
  October 17, 2012; however, a pharmacy claim was identified on
  July 19, 2012, which fell outside the validity period for each authorization.
  As a result, the claim remained outstanding because TAMC officials
  indicated that VAPIHCS refused to back-date the authorization and
  reimburse TAMC for the pharmacy claim totaling $6,854.40.             As of
  May 7, 2013, this claim remained unauthorized and not reimbursed.

•	 Urgent/Emergent Claims Were Missing Authorizations. For FY 2012,
  1,949 urgent/emergent claims, valued at $202,995, were missing an
  authorization as of October 11, 2012.     Joint Policy #08-020 states that
  VA beneficiaries seeking emergency care at a TAMC clinic will be treated
  and that VAPIHCS will be notified within 5 business days through the
  TAMC VA Referral Center of the encounter. The VA Referral Center will
  seek retrospective authorization from VAPIHCS for services rendered.
  VA beneficiaries seeking emergency care at TAMC will be triaged by the
  emergency room physician.        TAMC management provided data from
  January 2010 to August 2012 showing that receiving the retrospective
  authorization took on average 111 days. Whether TAMC failed to notify
  VAPIHCS of the emergency encounter or VAPIHCS failed to provide the
  authorization remains in question; however, the untimely authorizations
  negatively affected TAMC reimbursement for urgent/emergent services
  rendered to VAPIHCS beneficiaries.

•	 Inpatient Claims Were Missing Authorizations, Because No Formal
  Requirement To Obtain Such Authorizations Existed.            For FY 2012,
  117 inpatient claims, valued at $292,263, were missing an authorization
  as of October 11, 2012.       Unlike established guidance for outpatient
  services, established guidance to discuss inpatient services did not exist.
  Although no written guidance existed requiring a VAPIHCS authorization for
  inpatient care, the E-DR system required an authorization for a claim to be
  processed. As such, inpatient claims did not clear the E-DR authorization
  because one was not provided.

•	 Claims    for   Services   Rendered     Missing    Authorizations     Were
  Deleted.     In addition to the 7,536 claims missing authorizations,
  E-DR ARMS-Pro contractor, Benefit Recovery Inc., provided us with a list
  of an additional 617 claims from FY 2010 through FY 2012, worth about
  $56,267, which were deleted from E-DR.        TAMC officials indicated that




                                                                              DODIG-2013-135 │ 11
Finding



                            VAPIHCS refused to provide an authorization for the services. As a result,
                            TAMC management decided to delete these claims, despite service
                            being rendered.

                 To address the lack of authorizations for outpatient care, urgent/emergent care, and
                 inpatient care, TAMC should request administrative privileges within E-DR to generate,
                 adjust, or amend an authorization so that fewer claims would fall outside or between
                 authorization periods and thereby elude reimbursement. These examples also present
                 the possibility of endangering the patient’s safety and health at TAMC because the
                 burden of uncompensated care as a result of an ineffective authorization process limits
                 resources and threatens TAMC’s ability to care for all patients.

                 TAMC should also not be expected to absorb the costs of care rendered in good faith and
                 associated with treating VAPIHCS beneficiaries. TAMC management needs to revise the
                 authorization policies to allow TAMC the ability to properly bill VAPIHCS for services
                 rendered to beneficiaries, regardless of whether VAPIHCS provides an authorization.

                 TAMC Management needs to reinstate the deleted claims and request from VAPIHCS
                 an authorization, and if no authorization is received, bill VAPIHCS after 45 days for the
                 services rendered.


                 Data Quality Concerns Prevented Timely Processing of Thousands of Claims
                 In FY 2012, of the 11,034 claims with authorization errors, 3,414 claims valued at
                 $1.87 million contained data quality errors resulting in authorization failures as of
                 October 11, 2012. These claims for services rendered to VAPIHCS beneficiaries contained
                 data quality problems that prevented the claims from clearing the E-DR ARMS-Pro
                 billing module and TAMC from receiving reimbursement. Examples of these errors
                 include the following:

                          •	 Missing Appointment Internal Entry Number Caused Authorization
                            Failures.      2,354 urgent/emergent claims worth $78,632 resulted
                            in authorization failure illustrated in E-DR as “Invalid Search Criteria”
                            as of October 11, 2012.         These authorizations failed to process the
                            E-DR ARMS-Pro billing module because claims were missing the
                            required appointment Internal Entry Number. According to TAMC officials,
                            for the authorization to link all medical procedures performed on the
                            patient during the approved authorization period, TAMC requires
                            an appointment Internal Entry Number when building claims.              TAMC
                            Management stated that these errors occurred because TAMC Clinical




12 │ DODIG-2013-135
                                                                                                                                          Finding



                   staff are not linking an appointment Internal Entry Number to the
                   appropriate appointment. However, TAMC management did not research
                   or correct these errors. TAMC Management needs to review these
                   authorization failures more timely to ensure that the required Internal Entry
                   Number is properly linked to the appointment.

               •	 Level of Care (LOC) Authorization Failures. TAMC failed to identify how
                   LOC mismatch authorization errors7 negatively affected TAMC’s ability to
                   collect on inpatient episodes of care for 908 claims worth about $1.8 million
                   in FY 2012 as of October 11, 2012. TAMC management indicated that
                   LOC authorization failures occur for the following two reasons: either billing
                   methodologies supplied by TAMC and VAPIHCS-Utilization Management
                   nurses differ for each specific inpatient episode of care, or, because
                   of inconsistent methodologies, the E-DR system provides inaccurate
                   information when a patient transfers between different LOCs at TAMC.
                   TAMC officials provided a system change request, dated October 28, 2010,
                   approved in December 2011, to correct this calculation in E-DR. These
                   situations occurred because Joint Policy #08-020 for authorizations failed
                   to standardize a shared methodology.                            TAMC Management needs to
                   establish a standardized shared methodology when calculating inpatient
                   LOC days under the interagency sharing agreement.

               •	 Social Security Number and Date of Birth Errors. We identified 152 claims
                   as of October 11, 2012 that remained outstanding, totaling $33,759, because
                   of social security number and date of birth errors, resulting in authorization
                   failures. TAMC Management was not able to determine why such errors
                   remained unprocessed in the ARMS-Pro billing module; however, TAMC
                   Management indicated that these errors may occur from TAMC personnel
                   making transposition errors when entering patient information in their
                   systems. TAMC Management needs to review these authorization failures
                   more timely to ensure the data input accuracy and correct the 152 errors for
                   social security number and date of birth

Modification Process To Revise Local Policies
The MSA and joint policies did not provide an effective policy modification process,
which prevented timely reimbursement for care provided to VAPIHCS beneficiaries.
The MSA outlines the process to modify existing joint policies. TAMC officials must


	 7	
       LOC mismatch authorization errors occur when the sum of the individual duration of Levels of Care do not add up to the
       total stay.




                                                                                                                                DODIG-2013-135 │ 13
Finding



                 submit, in writing and with an accompanying justification, all modification requests
                 to the TAMC Joint Venture Office. TAMC personnel stated that the responsibility to
                 maintain, update, and modify the MSA and joint policies, on behalf of TAMC, resides
                 with the TAMC Joint Venture office. The Joint Venture Office Coordinator facilitates
                 revisions on updates before presenting the requests to the Joint Business Working
                 Group and to the Joint Venture Steering Group8 for their approval. The modification
                 becomes effective after the Joint Venture Steering Group approves and receives
                 signatures from both agencies. However, when the two parties have not agreed, the
                 results have been delays in modification, no changes at all, and sometimes, unfair
                 financial advantage for VAPIHCS.

                 Disagreements between TAMC and VAPIHCS have prevented necessary modifications
                 and changes to the reimbursement methodology and have contributed to $3.7 million
                 in uncompensated care. An example of a repeatedly delayed and poorly negotiated
                 policy at the center of disagreement between TAMC and VAPIHCS is the Joint Policy
                 for Reimbursement. The Joint Policy for Reimbursement is to be updated annually
                 between the two agencies and is intended for the purpose of tracing the financial
                 obligations relating to the provision of patient care and other services exchanged
                 between VAPIHCS and TAMC.                         Table 4 illustrates the delays in reimbursement
                 methodology approval from the start of fiscal years.

                 Table 4. Delays in Reimbursement Methodology Approval
                                Fiscal Year                           Date Approved                   Days Since Start of FY (Oct 1)
                      FY 2009                                       February 20, 2009                                  142
                      FY 2010                                      December 15, 2009                                     75
                      FY 2011                                          June 21, 2011                                   263
                      FY 2012                                      December 27, 2011                                     87
                                                                   Not Approved as of
                      FY 2013                                                                                          231
                                                                     May 20, 2013


                 The delays are proving costly for TAMC. TAMC’s Joint Venture Office Coordinator
                 has recently attempted to revise portions of the policy for FY 2013 to remove what
                 TAMC management felt were unfair financial benefits to VAPIHCS. Changes included
                 revising the requirement to bill and not pay professional fees, establishing definitive
                 policy regarding medical coding, and removing the Fee Based Claims System (FBCS)
                 through which VAPIHCS is processing TAMC claims. Specifically:


                 	8	
                       Both the Joint Business Working Group and Joint Venture Steering Group are composed of representatives from both TAMC
                       and VAPIHCS management.




14 │ DODIG-2013-135
                                                                                         Finding



•	 Professional Fees. Beginning in FY 2010, the Reimbursement Methodology
  stated, “professional charges for attending and/or consulted physicians
  will be billed but not be required to be paid by VAPIHCS pending resolution
  between the TAMC Chief of Staff and the VAPIHCS Associate Director.” TAMC
  Management was able to quantify for FY 2011 through FY 2013 the cost of
  professional charges at $3.7 million, while still awaiting resolution. For the
  Draft FY 2013 Reimbursement methodology, however, TAMC management
  revised the statement, removing the “not required to pay” portion.

•	 Medical Coding Disagreements.           Many times, the Draft FY 2013
  Reimbursement Methodology, identifies that DoD follows the Military
  Health System Guidelines for coding inpatient and outpatient care. Although
  not able to quantify how many claims have been denied by VAPIHCS
  because of medical coding disagreements, TAMC management expressed
  concernswith the differences in the coding methodologies that the
  joint partners use.    Specifically, TAMC management shared a VAPIHCS
  report that stated a lack of confidence in TAMC’s coding abilities and
  its reluctance to pay claims without prior review.         Furthermore, the
  TAMC Joint Venture Coordinator stated that VAPIHCS management
  stated   that   TAMC   was    engaging   in   fraudulent   billing   practices.


  In response to VAPIHCS, TAMC requested that MEDCOM perform a coding
  review. The review found no patterns or trends to support fraudulent billing
  practices. Also, VAPIHCS did not use the Military Health System Coding
  guidelines as binding guidance for the review, which is stipulated in the
  sharing agreement.

•	 Claims Subject to FBCS.      Within the Draft FY 2013 Reimbursement
  Methodology, TAMC management attempted to add a section stating,
  “for Joint Venture claims from TAMC, all claims will be processed and paid
  without being subject to FBCS edits. Reconciliation of claims and application
  of these audits will be performed post payment.” TAMC personnel stated
  that FBCS is a new system through which VAPIHCS processes claims;
  however; FBCS was never approved within the Joint Venture. Although not
  able to quantify the dollar value of claims denied by VAPIHCS processing
  claims through FBCS, TAMC staff expressed numerous concerns with this
  system. These concerns included the numerous denials FBCS is producing
  because of VA processing errors and the waste of resources occurring when
  denials are printed and sent through the U.S. Postal Service instead of using




                                                                               DODIG-2013-135 │ 15
Finding



                                   the E-DR contracted system. Figure 2 illustrates the denials that TAMC
                                   has received from FBCS at the time of our site visit on October 30, 2012, and
                                   a photo provided by TAMC personnel as of February 27, 2013 (estimated
                                   to now be more than 5,000).

                 Figure 2. FBCS Denials Mailings




                      As of October 30, 2012                         As of February 27, 2013



                 The TAMC Joint Venture Office Coordinator stated that because of these proposed
                 changes, among others, VAPIHCS will not sign the draft into current policy and the
                 prior year (FY 2012) Joint Policy for Reimbursement remains in effect. As a result, the
                 financial benefits of professional fees that are billed but not paid favor VAPIHCS and
                 are at a cost to TAMC of about $3.7 million. In addition, VAPIHCS is inappropriately
                 denying thousands of claims because of medical coding concerns and a new processing
                 system. Because of the magnitude of problems identified in FY 2012 and FY 2013,
                 TAMC management needs to immediately elevate to MEDCOM and Health Affairs a
                 request to review this reimbursement policy regarding the additional financial benefits
                 provided to VAPIHCS, coding disagreements, the use of FBCS in denying TAMC claims,
                 and the delays in achieving approval by both parties.


                 Additional Management Oversight Is Needed
                 The MSA and Joint Policies for reimbursement, claims and payment and authorizations
                 were ineffective to obtain timely reimbursement for services rendered to VAPIHCS
                 beneficiaries.          This occurred because the Commander at TAMC, Commander at
                 MEDCOM, and Director of DVPCO did not provide adequate oversight to the
                 Joint Venture relationship. Management at these levels had been aware of the many
                 problems presented within this report and the rising delinquent debt since 2010
                 without adequately attempting to resolve the longstanding problems with VAPIHCS.


16 │ DODIG-2013-135
                                                                                                    Finding



Oversight Was Insufficient by Prior TAMC Leadership
The prior Commanding General of TAMC was also the Commanding General of the
PRMC.    He oversaw operations at TAMC and PRMC from May 25, 2010, through
October 3, 2012. During his tenure, both he and his staff were made aware of these
longstanding problems. Also, they implemented inadequate policies, as well as had
opportunities presented to them by staff to resolve these problems and potentially
improve processes. As of October 1, 2012, TAMC management reported that VAPIHCS
was delinquent by $26.2 million for services provided from FY 2009 through FY 2012.
TAMC management has, without success, routinely tried to resolve these issues at the
lowest levels to properly be reimbursed for services rendered.


Lack of an Operational Dispute Resolution Process at TAMC
The dispute resolution process is not working effectively for the Joint Venture.
Joint Policy #08-16 lays out a seven-level dispute resolution process to be used to resolve
claims when they are not paid or when there is a question about the payment amount.
The policy requires that problems not resolved in a timely manner be elevated from
TAMC management up to the Commander, MEDCOM, and Assistant Secretary of
Defense (Health Affairs).

The inadequate oversight of the dispute resolution process at TAMC has allowed
millions of dollars in claims to remain unresolved, despite years of promises by
VAPIHCS personnel that the problems would be solved.             Examples of the claims
that remained in dispute include claims denied because of coding errors and claims
being processed and denied within the FBCS system. The prior Commanding General
at TAMC did not take timely action to elevate these concerns in accordance with local
Joint Policy.   After the prior commanding general’s departure, TAMC and PRMC
officially elevated these concerns to MEDCOM (see Appendixes B and C), despite years
of communication regarding the delinquent debt. TAMC management must elevate
concerns in a timelier manner in accordance with Joint Venture policies.


Missed Opportunity To Improve the Authorization Process
The authorization process under the interagency sharing agreement allowed
VAPIHCS to manipulate TAMC reimbursements.             This occurred because VAPIHCS
maintained oversight of the E-DR contract, which allowed VAPIHCS the authority
only to generate an authorization number for each episode of care. As a result of this
situation, TAMC lacked the authority to obtain reimbursement from VAPIHCS when
a VAPIHCS-approved authorization number remained untimely or absent. TAMC




                                                                                          DODIG-2013-135 │ 17
Finding



                 management previously attempted to take appropriate action to bring the
                 E-DR ARMS-Pro billing module in house by submitting a contract request. Bringing
                 the E-DR ARMS-Pro billing module in house would have allowed TAMC to generate
                 the necessary authorizations, along with providing oversight to a DoD process,
                 while saving $126,400 annually.9                          The request was approved on behalf of the
                 commanding general in FY 2012; however, the decision was never implemented.
                 TAMC management was unable to explain why the contract request was never
                 fulfilled. TAMC management must work withMEDCOM to obtain contract oversight
                 over the ARMS-Pro billing system with E-DR, thus allowing TAMC the needed
                 administrative privileges over a DoD process


                 U.S. Army MEDCOM Oversight by Prior Leadership
                 U.S. Army Medical Command serves as the Major Command for both the PRMC and
                 TAMC, and level seven in the dispute resolution process. MEDCOM should have elevated
                 these concerns to achieve resolution between TAMC and VAPIHCS.

                 U.S. Army Medical Command personnel have long been aware of the problems
                 presented by TAMC. MEDCOM provided a timeline of its actions regarding the delinquent
                 debt dating back to 2008, but those actions have not been sufficient to resolve the
                 problems. When we addressed these concerns to the Chief of Staff at MEDCOM, he
                 stated that he should have done more to intervene and resolve these problems. During
                 the course of our review, the Chief of Staff took official action in December 2012 to send
                 a memo to the Assistant Secretary of Defense (Health Affairs) requesting assistance
                 with the VAPIHCS billing problems. (See Appendix D.) On March 15, 2013, MEDCOM
                 stated that VA had paid down the delinquent debt to $13.3 million.

                 Although these are steps in the right direction, MEDCOM did not take appropriate
                 actions to assist in a timely manner and must continue elevating these concerns until all
                 delinquent debt, unbilled claims, uncompensated care, and denial issues are resolved.


                 TRICARE Management Activity Oversight
                 One of the objectives of the DVPCO is to serve as the central entity within Health Affairs/
                 TRICARE Management Activity to monitor all VA/DoD Health Care Resource Sharing
                 activities, to include Financial Management and Joint Ventures. The DVPCO provides
                 administrative and operational support to the Health Executive Council, which is

                 	9	
                       The TAMC Uniform Billing Office identified a contract savings of $126,400 by streamlining its ARMS-Pro billing services with
                       existing services already provided to Korea and Japan.




18 │ DODIG-2013-135
                                                                                                     Finding



composed of senior officials (to include Assistant Secretary of Defense [Health Affairs],
Surgeon General of the Army, and Deputy Assistant Secretary of Defense [Health Budgets
and Financial Policy]), whose responsibilities include overseeing working groups
and identifying opportunities to enhance mutually beneficial coordination.

The Health Executive Council oversees the Financial Management Working Group, whose
responsibilities include reviewing reimbursement policies and identifying policies
requiring modification and clarification, developing recommendations for improving
financial processes and practices, and resolving billing and
reimbursement problems.

                                                                     The Director
The Director of DVPCO referred to these problems as             DVPCO … stated that
“local Army problems” that his office will not resolve        his office has been aware
because these problems are not seen as systemic               of the issues at TAMC for
                                                            quite some time, but because
across all Joint Ventures.       He also stated that
                                                                no one has “formally”
his office has been aware of the problems at TAMC               requested the office’s
for quite some time, but because no one has                   assistance, his office has
“formally”   requested     the     office’s   assistance,          not intervened.
his office has not intervened.        The current billing
and reimbursement problems date back to 2008.               For
years, TAMC management has been requesting help from MEDCOM and DVPCO.
TAMC staff provided documentation showing it has attempted to elevate the
billing problems to DVPCO starting in 2010. There is no requirement for a “formal”
request to be a prerequisite of DVPCO involvement when the two agencies cannot
agree.   DVPCO management consistently maintained that these are local problems
and refused to engage, despite billing and reimbursement problems being a
responsibility of the Health Executive Council Financial Management Working Group.
This is an example of the need for proactive management by DVPCO. DVPCO should
present billing and reimbursement problems to the Health Executive Council Financial
Management Working Group for resolution and develop and action plan to improve
timely reimbursements for TAMC.


Impact of Insufficient Oversight
With the lack of sufficient oversight from the former TAMC Commander, Chief of Staff
MEDCOM, and Director DVPCO, the burden of about $26.2 million in delinquent
debt, $3.7 million in unbilled claims, and $3.7 million in uncompensated care will
continue to grow.     Furthermore, the policies governing the Joint Venture and the
delinquent debt have not ensured that the military treatment facility can meet the




                                                                                           DODIG-2013-135 │ 19
Finding



                 reimbursement requirement of Section 8111, Title 38, United States Code, which
                 states that an agency will be reimbursed for the cost of health care resources provided.
                 TAMC needs to initiate action to submit the $3.7 million in unbilled claims, $3.7 million
                 in billed professional fees, and $56,267 in deleted authorization claims. MEDCOM and
                 the DVPCO must take immediate action to resolve the longstanding issue of TAMC not
                 being reimbursed for the medical care provided to VAPIHCS beneficiaries.


                 Management Comments on the Finding and
                 Our Response
                 Management Comments
                 The Assistant Secretary of Defense (Health Affairs) generally concurred with the report’s
                 findings and conclusions. However, he submitted general comments stating that it
                 was unclear how the delinquent debt will continue to grow because VA has reduced
                 the debt by 50 percent during the course of the audit. Additional comments also
                 included the DVPCO did identify and work within its means to identify resolutions for
                 TAMC reimbursement issues by identifying improvements in the Consolidated DSS
                 Final Report dated July 2008, which was provided to the Health Executive Council. He
                 also stated that the Health Executive Council is separate and above the DVPCO, which
                 provides administrative and operational support to the Health Executive Council.
                 And finally, the Assistant Secretary of Defense (Health Affairs) stated that the DVPCO
                 has limited authority to involve itself in the operational issues occurring at the unit
                 level to resolve the reimbursement issues at TAMC.


                 Our Response
                 We considered the Assistant Secretary of Defense (Health Affairs) general comments
                 to the final report. We did revise the statement within the report to note the DVPCO
                 provides administrative and operational support to the Health Executive Council. With
                 regards to his other general comments, the following are our comments. Although
                 VA has paid down debt, the paying down of debt does not mean that the weaknesses
                 that contributed to the debt, from both DoD and VA, have been resolved. Implementation
                 of the recommendations made to TAMC and MEDCOM will help resolve some of
                 these concerns; however department level assistance will be required to resolve the
                 longstanding problems between TAMC and VAPIHCS.




20 │ DODIG-2013-135
                                                                                              Finding



The Consolidated DSS report in reference is from July 2008, before the implementation
of E-DR. A subsequent solution was developed through the use of E-DR; however, issues
identified within this report stem from the system and contract. Furthermore, the
rising delinquent debt reviewed in the report was from 2009 through 2012 and does
not support improvements made to the revenue cycle process between the joint venture
partners since 2008.

Finally, we agree with the importance of the military chain of command; however,
neither MEDCOM nor TAMC have authority over VAPIHCS.            When joint venture
partners reach impassable roadblocks, the issues need to be elevated to the DVPCO for
assistance, and possibly presented to the Financial Management Working Group.
MEDCOM provided evidence to show attempts to get assistance from the DVPCO,
with no resolution/assistance provided as such issues continue to be problematic, and
delinquent debt continues to rise.


Recommendations, Management Comments, and
Our Response
Redirected Recommendation
As a result of management comments, we redirected Recommendation 3 to the
Assistant Secretary of Defense (Health Affairs) which has the authority to implement
the recommendation.

1. We recommend the Commander, Tripler Army Medical Center:

        a.	 Request the required waiver from the Office of the Under Secretary
           of Defense in accordance with DoD Financial Management Regulation
           volume 4, chapter 3.

Management Comments
The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating
the waiver will request permission for TAMC to continue to provide services to
VA beneficiaries even through reimbursements continue to be in arrears. Submission of
the waiver will commence August 1, 2013.




                                                                                    DODIG-2013-135 │ 21
Finding



                 Our Response
                 Comments from the Chief of Staff, MEDCOM, were responsive. Command did provide
                 a copy of the waiver request, initially submitted on May 1, 2013.           No further
                 comments are required.

                         b. Review, research, and correct the unbilled claims containing billing
                            and coding errors and claims containing authorization errors to
                            comply with DoD Financial Management Regulation volume 4,
                            chapter 3, by recording the unbilled claims as receivables.

                 Management Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating
                 that TAMC’s Uniform Business Office is identifying billing discrepancies, correcting
                 computer logic, and reprocessing claims of all prior years. Currently, the focus is on
                 FY 13 claims. Staffing shortages and furlough will significantly impact the timeline for
                 both the Joint Venture Office and Uniform Business Office. Review and correction of
                 FY 13 bills should be complete by December 31, 2013, and the remainder by
                 September 30, 2014.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
                 are required.

                         c.	Revise the Joint Policy #08-016 for Claims and Payment to comply
                            with DoD Financial Management Regulation volume 4, chapter 3.

                 Management Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating
                 that on July 10, 2013, the Joint Business Working Group discussed Joint Policy #08-016
                 for Claims and Payment and agreed on the importance of updating the policy. TAMC
                 will request assistance and guidance from MEDCOM if problems are encountered during
                 the update process. A draft policy is anticipated to be submitted to the Joint Venture
                 Steering Group on August 20, 2013, and a final version will be sent to MEDCOM by
                 September 30, 2013.




22 │ DODIG-2013-135
                                                                                                       Finding



Our Response
Comments from the Chief of Staff, MEDCOM, were responsive.               Command stated
the Coding and Billing subgroup requested an extension to present the draft policy,
which was granted.      Therefore, it will be presented at the next monthly meeting.
No further comments are required.

        d.	Establish written procedures on roles and responsibilities for staff to
            research, review, and correct claims containing errors.

Management Comments
The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating
that TAMC will develop staff roles and responsibilities related to the revenue cycle,
including   VA    Referral   center   contact   representatives/utilization   management
registered nurses (authorization/consult approval); clinical frontline medical service
assistants; coders; and Uniform Billing Office and Accounts Receivable staff.          This
information will be included in a Standard Operating Procedure to be presented to the
TAMC Center Joint Venture working team for approval on October 7, 2013. Additionally,
TAMC instituted quarterly training on how to identify dual-eligible patients and a
VA referral, as well as tips for booking the beneficiaries and entering the authorization.


Our Response
Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
are required.

        e.	 Update the Joint Policy #08-020 for Authorization to:

            (1)	Grant administrative privileges within Enhanced-Document and
                 Referral Management System to Tripler Army Medical Center
                 management to generate, adjust, or amend an authorization.

            (2)	Allow Tripler Army Medical Center the ability to properly bill
                 Veterans Affairs Pacific Islands Health Care System for services
                 rendered to its beneficiaries, regardless of whether Veterans Affairs
                 Pacific Islands Health Care System provides an authorization.

            (3)	Standardize a shared methodology when calculating inpatient
                 Level of Care days under the interagency sharing agreement.




                                                                                             DODIG-2013-135 │ 23
Finding



                 Management Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, TAMC, disagreed,
                 stating that TAMC is unable to grant administrative privileges within the E-DR because
                 that function is controlled by VAPIHCS.        TAMC will request VAPIHCS to grant
                 administrative privileges to TAMC management personnel, but cannot ensure
                 agreement from VAPIHCS.        The request will be made during an August 2013
                 Joint Business Working Group meeting.

                 In addition, it is inconsistent with regulatory guidance to allow TAMC to bill
                 VAPIHCS for services rendered without proper authorization. Army Regulation 40-400,
                 paragraph 3-23a(2) states that Army Military Treatment Facilities will furnish medical
                 care to a veteran on the basis of an authorization for treatment from the field station
                 having jurisdiction. Reimbursement will not be made by the VA for medical care
                 furnished before the effective date of the authorization, except in emergency
                 medical care.

                 Finally, the shared methodology for calculating inpatient LOC days has been
                 implemented. The contractor indicated that the most current business rules are loaded
                 in the VA Authorization Check Web Service, which pulls data from the Referral
                 Management Inpatient Module of E-DR and performs the LOC duration calculations.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, were partially responsive. If VAPIHCS
                 refuses to grant administrative privilege, TAMC’s ability to properly bill VAPIHCS
                 can   be   achieved   only   from   actions   taken   from    MEDCOM’s      response   to
                 Recommendation 2.b. Therefore if actions taken in Recommendation 2.b are
                 implemented, this needs no further action.

                 Based on Army Regulation 40-400, TAMC has the ability to (1) deny services to VAPIHCS
                 beneficiaries when an authorization for such care has not been received, or (2) collect
                 locally from the veteran concerned. TAMC officials stated that the political fallout
                 associated with denying services or locally billing VAPIHCS beneficiaries did not serve
                 in the best interest of the sharing agreement. We agreed with this logic and believe
                 these expectations were overstated and not viable options that served in the best
                 interest of the sharing agreement. The goal is to improve access, quality, efficiency, and
                 effectiveness of health care provided by the Military Health System and Veterans Health
                 Administration to their respective beneficiaries as outlined in DoD Instruction 6010.23,
                 “DoD and Department of Veteran Affairs (VA) Health Care Resource Sharing Program,”




24 │ DODIG-2013-135
                                                                                                   Finding



dated January 23, 2012. Therefore, we ask the Chief of Staff, MEDCOM, to provide further
detail in response to the final report, on how to improve the authorization process
between VAPIHCS and TAMC by October 18, 2013.

Comments from the Chief of Staff, MEDCOM, were responsive regarding LOC days
under the sharing agreement. No further comments are required.

        f.	Reinstate the deleted claims and process the claims to Veterans
           Affairs Pacific Islands Health Care System for reimbursement of
           services rendered.

Management Comments
The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating
that the Joint Venture Office requested a list from the billing contractor and will review
the list of claims deleted for straight K61 beneficiaries (straight K61 beneficiaries are
VA beneficiaries) and reprocess valid claims. VAPIHCS indicated that it will not process
any retrospective authorizations for any period of time until it receives guidance from
the Veterans Integrated Service Network.          TAMC will request assistance and
guidance from MEDCOM, if necessary, but anticipates action will be complete by
December 31, 2013.


Our Response
Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
are required.

        g.	Review authorization failures more timely to ensure “Internal Entry
           Number” is properly linked to the appropriate appointment and the
           accuracy of data input. Claims containing authorization errors need
           to be resolved and processed.

Management Comments
The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating
that TAMC is reviewing options to address this recommendation, including hiring
additional staff or making changes to E-DR to automate linkage of authorizations to the
internal entry number to address this issue. Because of sequestration, we anticipate
action will be complete by December 31, 2014.




                                                                                         DODIG-2013-135 │ 25
Finding



                 Our Response
                 Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
                 are required.

                         h.	Elevate to U.S. Army Medical Command a request to review the
                            reimbursement policy regarding the additional financial benefits
                            provided to Veterans Affairs Pacific Islands Health Care System,
                            coding disagreements, the use of Fee Based Claims System in denying
                            Tripler Army Medical Center claims, and the delays in achieving
                            approval by both parties. Additionally, Tripler Army Medical Center
                            must elevate all unresolved recommendations (1.a to 1.h) in a timely
                            manner to the U.S. Army Medical Command if Tripler Army Medical
                            Center and Veterans Affairs Pacific Islands Health Care System
                            management fail to achieve a negotiated solution.

                 Management Comments
                 The Chief of Staff, MEDCOM, responding for the Commander, TAMC, agreed, stating that
                 TAMC will elevate to MEDCOM requests to review the reimbursement policy regarding
                 additional financial benefits and unresolved recommendations in a timely manner.
                 He also stated VAPIHCS controls the Fee Based Claims System and informed TAMC
                 that VA Central Office denied a request to bypass the system for Joint Venture
                 claims. TAMC will elevate this issue to MEDCOM. These actions will be completed by
                 December 31, 2013.


                 Our Response
                 Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
                 are required.

                 2. We recommend that the Commander, U.S. Army Medical Command

                         a.	 Elevate to DoD/Veterans Affairs Program Coordination Office a
                            request to review the reimbursement policy regarding the additional
                            financial benefits provided to Veterans Affairs Pacific Islands Health
                            Care System, coding disagreements, the use of Fee Based Claims System
                            in denying Tripler Army Medical Center claims, and the delays in
                            achieving approval by both parties.




26 │ DODIG-2013-135
                                                                                                  Finding



Management Comments
The Chief of Staff, MEDCOM, responding for the Commander, MEDCOM, agreed,
stating that as a follow up to the December 17, 2012, memorandum to the Assistant
Secretary of Defense (Health Affairs), MEDCOM will request further assistance from
Assistant Secretary of Defense (Health Affairs) to resolve the remaining TAMC-VAPIHCS
billing issues. Numerous meetings did occur between January and March 2013,
and although some progress occurred, Department-level assistance is still required and
will be requested by August 31, 2013.


Our Response
Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
are required.

        b.	Direct Tripler Army Medical Center obtain contract oversight over
             the Accounts Receivable Management System-Professional billing
             system with Enhanced-Document and Referral Management System.
             This authority would allow Tripler Army Medical Center the needed
             administrative privileges over a DoD process.

Management Comments
The Chief of Staff, MEDCOM, responding for the Commander, MEDCOM, disagreed,
stating that TAMC cannot unilaterally obtain oversight for the current contract
without obtaining consent from VAPICHS. However, MEDCOM will direct TAMC to
officially request administrative privileges for the ARMS-Pro and E-DR.

He further stated that if the VAPIHCS will not allow access, MEDCOM will direct
U.S. Army Pacific Regional Medical Command to execute a contract line item number
under the current contract for ARMS-Pro used in Korea and Japan. Executing the
contract line item number will enable TAMC to recognize receivables when
corresponding revenue is earned in accordance with DoD FMR, Volume 4,
chapter 3.      Additionally, executing the contract line item number will be an
interim solution until deployment of the Armed Forces Billing and Collection
Utilization Solution. Once deployed, the Armed Forces Billing and Collection Utilization
Solution will be the Army’s billing platform, and TAMC will be required to use the
Armed Forces Billing and Collection Utilization Solution billing process. Full deployment
of the Armed Forces Billing and Collection Utilization Solution is expected by
December 31, 2014.




                                                                                        DODIG-2013-135 │ 27
Finding



                 Our Response
                 Comments from the Chief of Staff, MEDCOM, were responsive. Although the Chief
                 of Staff, MEDCOM, did not agree with the recommendation, the actions to be taken
                 would be sufficient to meet the intent of the recommendation. Therefore, no further
                 comments are required.

                 3.  We recommend that the Assistant Secretary of Defense (Health Affairs) require
                      the Director DoD/Veterans Affairs Program Coordination Office, present these
                      billing and reimbursement problems to the Financial Management Working
                      Group, which reports to the Health Executive Council, for resolution and develop
                      an action plan to improve reimbursements.


                 Management Comments
                 The Assistant Secretary of Defense (Health Affairs) partially agreed with
                 Recommendation 3.       He stated that the Director, TRICARE Management Activity,
                 whom the recommendation was originally directed to, is dual-hatted as the
                 Assistant Secretary of Defense (Health Affairs), and as such is the DoD Co-Chair of
                 the Health Executive Council. Therefore, the recommendation should be directed to
                 the Assistant Secretary of Defense (Health Affairs). The Financial Management Working
                 Group reports to the Health Executive Council, not the DVPCO. He recommended
                 rewording the recommendation.


                 Our Response
                 We consider the Assistant Secretary of Defense (Health Affairs) comments partially
                 responsive.    We have revised the recommendation to incorporate the suggested
                 redirection; however, comments did not address how to ensure that the appropriate
                 offices are brought together to assist the Financial Management Working Group, when
                 these meetings would occur, or the subsequent action plan to improve reimbursements.
                 Therefore, we ask the Assistant Secretary of Defense (Health Affairs) to provide further
                 detail in response to the final report by October 18, 2013.




28 │ DODIG-2013-135
                                                                                               Finding



Management Comments on the Potential Monetary
Benefits and Our Response
Management Comments
The Chief of Staff, MEDCOM, agreed with the potential monetary benefits, stating
actual monetary benefits will be confirmed during the follow up process to ensure that
the recommendations were effectively implemented.


Our Response
Comments from the Chief of Staff, MEDCOM, were responsive. No further comments
are required.


Management Comments on Internal
Control Weaknesses
The Chief of Staff, MEDCOM, acknowledged our identification of internal control
weaknesses and the intent to provide a copy of the report to the senior official
responsible for internal controls in Department of Army. Actions taken in response
to the recommendations should correct these weaknesses.




                                                                                     DODIG-2013-135 │ 29
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from July 2012 through September 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on our audit objectives.

                 We interviewed personnel from TAMC, VAPIHCS, MEDCOM, and DVPCO through both
                 site visits and teleconferences to obtain information and source documentation on
                 health care services provided by TAMC to VAPIHCS beneficiaries. During the site visits
                 to TAMC and MEDCOM, we observed daily procedures performed by personnel and
                 examined key documents related to audit objectives. We also reviewed and analyzed
                 claims data in the ARMS-Pro computer system.

                 We obtained, reviewed, and analyzed Federal, DoD, Army, and local regulations,
                 instructions, and guidance related to health care services between VA and DoD. We
                 focused our review on the Joint Policy for Authorizations (signed March 2008), the
                 Joint Policy for Claims and Payment (signed March 2008), and the FY 2012
                 Reimbursement Methodology (signed December 2011).                We compared actions
                 being performed by personnel at TAMC, VAPIHCS, MEDCOM, and DVPCO to what the
                 Federal, DoD, Army, and local regulations, instructions, and guidance requires.

                 Our review was only of the DoD involvement with the authorization and claims process
                 for the Joint Venture between FY 2009 and FY 2012 for TAMC and VAPIHCS. We
                 chose to start our review with FY 2009 claims because FY 2009 coincided with the
                 implementation of E-DR. We nonstatistically selected for review 50 authorizations
                 to understand the authorization process, along with compliance with Joint Policy
                 authorization guidelines, and 60 claims to understand the claims and payment process,
                 along with compliance with the DoD FMR volume 4, chapter 3, and local Joint Policy.
                 In selecting the authorizations and claims, we reviewed the higher dollar items from
                 each category. We derived all sampled claims from the E-DR ARMS-Pro billing system.

                 We selected the 50 authorizations from a universe of 8,745 authorizations valued
                 at $20.9 million, which represented both inpatient and outpatient authorizations
                 from data provided as of October 11, 2012.                Of the 50 authorizations, we




30 │ DODIG-2013-135
                                                                                               Appendixes



reviewed 17 inpatient authorizations valued at $1,070,667, from the 905 inpatient
authorizations; and 33 outpatient authorizations valued at $177,322, from the
7,840 outpatient authorizations. Table 5 identifies the authorizations and the universe
from which they were selected.

Table 5. Authorizations Selected for Review
                      Authorizations       Amount           Total
       Type                                                                Total Amount
                        Reviewed          Reviewed      Authorizations
 Inpatient                  17            $1,070,667           905          $15,267,934
 Authorizations
 Outpatient                 33              177,322          7,840            5,665,037
 Authorizations
 Total                      50            $1,247,989         8,745          $20,932,971
 Authorizations


We reviewed FY 2012 information in the E-DR ARMS-Pro billing systems and identified
11,034 claims, valued at $3.45 million, not reimbursed because they remained
unauthorized by VAPIHCS. With TAMC and contractor personnel support, we were
able to identify the reason why each claim remained unauthorized, based on coded
data in the E-DR ARMS-Pro billing system; we used the coded data as the basis of the
authorization discussion in the report.

The 60 claims selected for review from data provided as of October 11, 2012, were
valued at $2.5 million. Of the 60 claims, we reviewed 30 from the unbilled category
that TAMC management identified as claims not yet recorded as accounts receivable.
We reviewed 15 claims valued at $103,718, from the 3,917 claims identified as
unbilled, containing billing or coding errors; in addition, we reviewed 15 claims valued at
$922,677 from 11,034 claims identified as unbilled unauthorized. We selected another
15 claims valued at $575,336 from the 5,935 claims identified as fully paid. Finally,
we selected 15 claims valued at $953,995 from the 26,606 claims identified as unprocessed
(and therefore unpaid). Table 6 identifies the claims reviewed and the universe from
which they were selected.

Table 6. Claims Selected for Review
                                           Amount
       Type           Claims Reviewed                     Total Claims     Total Amount
                                          Reviewed
 Unbilled – billing
 and coding errors          15            $103,718           3,197           $242,475

 Unbilled –                 15             922,677          11,034          3,449,918
 unauthorized
 Fully Paid                 15             575,336           5,935          3,706,758
 Unprocessed                15             953,995          26,606         12,578,056


                                                                                          DODIG-2013-135 │ 31
Appendixes



                 We also reviewed 10 denial letters from the FBCS system. Because FBCS was not
                 an approved Joint Venture system, these letters and subsequent denials do not appear
                 in the E-DR ARMS-Pro system. Accordingly, these denials were mailed to TAMC, not
                 transmitted electronically, and therefore these denials were not available for review
                 from the E-DR ARMS-Pro system. We reviewed these letters to identify the FBCS denial
                 code along with validate TAMC management concerns regarding claims being denied
                 outside the span of control of TAMC.

                 We did not assess overall contractor performance with the E-DR ARMS-Pro billing
                 system because the contract is a VA contract. Additionally, recommendations cannot
                 be made outside the Department of Defense.           We referred to the VA OIG any
                 VA processes or actions that we observed that may be contributing to the rising
                 delinquent debt and ineffectiveness of the policies. We requested assistance from
                 VA OIG to help with the audit or possibly perform a joint audit early in the audit;
                 however, VA OIG personnel stated that other projects would take precedent and could
                 not provide assistance in the matter at that time.


                 Use of Computer-Processed Data
                 We relied on computer-processed data to support our findings and conclusions.
                 Specifically, we relied on management reports generated from the E-DR ARMS-Pro billing
                 system to select the authorization and claims samples used to complete this audit.

                 To assess the reliability of this data, we reviewed source documentation related to the
                 transactions, obtained information from TAMC management and contractor support
                 regarding system processes, and reviewed various system reports.         Based on this
                 information, we determined that the data were sufficiently reliable for the purposes of
                 this report.


                 Use of Technical Assistance
                 The Quantitative Methods Division reviewed audit documents and advised us on the
                 validity of the nonstatistical sample selected. Also, the Quantitative Methods Division
                 reviewed Appendix A: Scope and Methodology, for technical clarity and defensibility.




32 │ DODIG-2013-135
                                                                                          Appendixes



Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Veterans Affairs Office of the Inspector General (VA OIG) have
issued three reports discussing topics related to VA and DoD’s Joint Venture for
health care services. Unrestricted GAO reports can be accessed over the Internet
at http://www.gao.gov.   Unrestricted    VA   OIG   reports   can   be   accessed   at
http://www.va.gov/oig/publications/default.asp.


GAO
Report No. GAO-12-992, “VA and DoD Health Care: Department-Level Actions Needed
to Assess Collaboration Performance, Address Barriers, and Identify Opportunities,”
September 2012

Report No. GAO-08-399, “VA Health Care: Additional Efforts to Better Assess Joint
Ventures Needed,” March 2008


VA OIG
Report No. 09-01643-170, “Combined Assessment Program Review of the VA Pacific
Islands Health Care System Honolulu, Hawaii,” July 29, 2009




                                                                                     DODIG-2013-135 │ 33
Appendixes




                 Appendix B
                 Tripler Army Medical Center Memo to Pacific Regional
                 Medical Command Requesting Assistance




34 │ DODIG-2013-135
                                                      Appendixes




Appendix C
Pacific Regional Medical Command Memo to U.S. Army
Medical Command Requesting Assistance




                                                 DODIG-2013-135 │ 35
Appendixes




                 Appendix D
                 U.S. Army Medical Command Memo to Assistant
                 Secretary of Defense (Health Affairs) Requesting
                 Assistance




36 │ DODIG-2013-135
                                                                                                                                    Appendixes




Appendix E
Summary of Potential Monetary Benefits
       Recommendation                  Type of Benefit*              Amount of Benefit                     Account
  3                                Economy and                     Total benefit, $33.6           97 0130 1881 (DHP
                                   Efficiency. VAPIHCS             million. ($13.4 million        O&M)
                                   reimbursement for               was paid during the
                                   healthcare services             course of the audit.10
                                   rendered by TAMC to             An additional $13.3
                                   VAPIHCS patients.               million in delinquent
                                                                   debt, $3.7 million
                                                                   in unbilled claim,
                                                                   and $3.7 million in
                                                                   uncompensated
                                                                   care must still be
                                                                   reimbursed by
                                                                   VAPIHCS.)

*Note: Potential monetary benefits are funds put to better use or questioned costs.
10




	10	
       On March 15, 2013, U.S. Army Medical Command provided documentation showing the delinquent debt had risen to
       $26.7 million; VA paid $13.4 million toward the debt, reducing the amount owed to $13.3 million. Therefore, the debt rose
       from the $26.2 million as of October 1, 2012, to $26.7 million. The total benefit calculation is derived from the
       $26.2 million delinquent debt during our review, $3.7 million in unbilled claims, and $3.7 million in uncompensated care.




                                                                                                                               DODIG-2013-135 │ 37
Management Comments




                 Management Comments
                 Assistant Secretary of Defense (Health Affairs)
                 Comments




38 │ DODIG-2013-135
                                                  Management Comments



Assistant Secretary of Defense (Health Affairs)        Final Report
Comments (cont’d)                                       Reference




                                                     Revised/Redirected




                                                        DODIG-2013-135 │ 39
Management Comments



                 Assistant Secretary of Defense (Health Affairs)
                 Comments (cont’d)




40 │ DODIG-2013-135
                                                  Management Comments



Assistant Secretary of Defense (Health Affairs)        Final Report
Comments (cont’d)                                       Reference




                                                          Revised




                                                        DODIG-2013-135 │ 41
Management Comments



                 U.S. Army Medical Command Comments




42 │ DODIG-2013-135
                                              Management Comments



U.S. Army Medical Command Comments (cont’d)




                                                    DODIG-2013-135 │ 43
Management Comments



                 U.S. Army Medical Command Comments (cont’d)




44 │ DODIG-2013-135
                                              Management Comments



U.S. Army Medical Command Comments (cont’d)




                                                    DODIG-2013-135 │ 45
Management Comments



                 U.S. Army Medical Command Comments (cont’d)




46 │ DODIG-2013-135
                                              Management Comments



U.S. Army Medical Command Comments (cont’d)




                                                    DODIG-2013-135 │ 47
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      ARMS-Pro Accounts Receivable Management System-Professional
                      DoD FMR DoD Financial Management Regulation
                        DVPCO DoD Veterans Affairs Program Coordination Office
                          E-DR Enhanced-Document and Referral Management System
                          FBCS Fee Based Claims System
                           LOC Level of Care
                      MEDCOM U.S. Army Medical Command
                          MSA Master Sharing Agreement
                         PRMC Pacific Regional Medical Command
                         TAMC Tripler Army Medical Center
                            VA Veterans Affairs
                       VAPIHCS Department of Veterans Affairs Pacific Island Health Care System




48 │ DODIG-2013-135
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
